<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                   
.                         
                        [H.A.S.C. No. 116-82]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                      FISCAL YEAR 2021 PRIORITIES

                        FOR MISSILE DEFENSE AND

                        MISSILE DEFEAT PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 12, 2020


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                              __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-479                     WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
                Maria Vastola, Professional Staff Member
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
  Subcommittee on Strategic Forces...............................     1
Turner, Hon. Michael R., a Representative from Ohio, Ranking 
  Member, Subcommittee on Strategic Forces.......................     1

                               WITNESSES

Chaplain, Cristina T., Director, Contracting and National 
  Security Acquisitions Team, U.S. Government Accountability 
  Office.........................................................     9
Hill, VADM Jon A., USN, Director, Missile Defense Agency.........     5
Karbler, LTG Daniel R., USA, Commanding General, U.S. Army Space 
  and Missile Defense Command and Commander, Joint Functional 
  Component Command for Integrated Missile Defense...............     7
O'Shaughnessy, Gen Terrence J., USAF, Commander, United States 
  Northern Command and North American Aerospace Defense Command..     3
Soofer, Dr. Robert, Deputy Assistant Secretary of Defense for 
  Nuclear and Missile Defense Policy.............................     8

                                APPENDIX

Prepared Statements:

    Chaplain, Cristina T.........................................   115
    Cooper, Hon. Jim.............................................    31
    Hill, VADM Jon A.............................................    52
    Karbler, LTG Daniel R........................................    74
    O'Shaughnessy, Gen Terrence J................................    32
    Soofer, Dr. Robert...........................................   103

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
  FISCAL YEAR 2021 PRIORITIES FOR MISSILE DEFENSE AND MISSILE DEFEAT 
                                PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, March 12, 2020.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
room 2212, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM 
     TENNESSEE, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. The subcommittee will come to order. The 
purpose of this hearing will be to receive testimony on DOD's 
[Department of Defense's] fiscal 2021 budget request for 
missile defense programs.
    Before I welcome the witnesses, I would like to note that 
this will be the final hearing for two people; one is our 
wonderful staffer, actually the minority staffer, Sarah 
Mineiro, who has done a superb job over her tenure here, and 
she will be sorely missed. Also, it is my understanding that 
Christina Chaplain will maybe only be appearing one more time 
but she has done a great job with GAO [Government 
Accountability Office]. So we are deeply appreciative for both 
of your services.
    The witnesses today are General O'Shaughnessy, Vice Admiral 
Hill, Lieutenant General Karbler, Dr. Soofer, and Ms. Chaplain. 
Thank you all for participating.
    There are many things I could go into. I will just ask 
unanimous consent that my statement be inserted for the record 
and turn to Mr. Turner, the ranking member, for his remarks.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 31.]

  STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE FROM 
     OHIO, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Thank you, Mr. Chairman. I, too, I want to 
thank Sarah for all of her hard work and dedication. It has 
been wonderful to work with her. And what has been exciting I 
think has not just been her work for all of the members but, 
really, all of the agencies and all of the organizations that 
interface with our committee has always given you incredibly 
high marks and has appreciated your professionalism and your 
substantive knowledge.
    Mr. Chairman, this year has been marked by tremendous 
success and disappointment across the missile defense 
enterprise. In March of 2019, the Department successfully 
conducted its first ground-based intercept of a complex threat-
representative salvo launch.
    As part of that test, MDA [Missile Defense Agency] also 
used their space-based kill assessment system to confirm the 
intercept. They have used data at their C2BMC [Command, 
Control, Battle Management, and Communications] system and then 
it did it again with a second interceptor. It was an impressive 
feat. Even you, Ms. Chaplain, acknowledge that it may be the 
most challenging test in the program's near 30-year history.
    Unfortunately, just a few months later, in August of 2019, 
the Department of Defense terminated the Redesigned Kill 
Vehicle [RKV] program, which was supposed to address 
reliability issues in our existing fleet of interceptors. That 
cancellation incurred $1.2 billion worth of sunk costs and 
declared a 10-year delay in a critically needed upgrade to our 
homeland missile defense capabilities. Perhaps the most 
disappointing part of this cancellation is that the failures 
leading to this action, both on the contractor and the 
government side, have eroded our confidence in the agency.
    The President's budget request for fiscal year 2021 across 
the missile defense and missile defeat enterprise totals $20.3 
billion. The majority of that money is for the Missile Defense 
Agency, which represents $9.2 billion; $7.9 billion in regional 
and strategic missile defense capabilities across the services 
and the DOD; and $3.2 billion in left-of-launch activities.
    While $20.3 billion is an admirable amount, missile defense 
still managed to take significant cuts to their program this 
year. Notably, this year's budget cancels the Homeland Defense 
Radar-Hawaii and the Pacific Radar. It zeroed out all funding 
of high-powered lasers for unique missile defense requirements. 
It zeroed out MDA's budget of hypersonic and ballistic space 
sensors and reallocated it somewhere in the Space Development 
Agency.
    These kinds of budget choices indicated significant lack of 
judgment in determining which requirements are being pursued in 
our missile defense enterprise, coupled with the acquisition 
failure of the RKV. I remain skeptical of the near-term 
programmatic direction of missile defense.
    While I anticipate significant challenges in the direction, 
priority, and scope of this year's missile defense budget 
request, there are some opportunities that I fully support. 
This year's budget request includes $206.8 million for 
hypersonic defense. It is a time of great power competition, 
with the Russians fielding strategic hypersonic weapons and the 
Chinese developing regional hypersonic weapons. We need to 
actively develop the capacity to defend ourselves from these 
threats.
    With this year's budget request, the Aegis Ballistic 
Missile Defense fleet will grow to 48 deployable ships to 
provide forward-deployed regional missile defense, and 
supportive partners, and allies. The fiscal year 2021 budget 
request includes $495 million for the procurement of THAAD 
[Terminal High Altitude Area Defense] interceptors. By fiscal 
year 2021, the THAAD program will have delivered 7 THAAD 
batteries and 351 interceptors, which have deployed globally to 
support our troops, partners, and allies.
    Lastly, the budget request attempts to address the problems 
caused by the cancellation of RKV. It funds the Next-Generation 
Interceptor, which is meant to be an All-Up-Round replacement 
for GBI [Ground-Based Interceptor].
    There are still a lot of programmatic and requirements-
based uncertainty about that program. General O'Shaughnessy, I 
look forward to hearing your testimony on the requirements for 
this system. And Admiral Hill, I want to hear how you will 
balance those requirements with an acquisition strategy that 
produces capability for this Nation within a reasonable 
timeframe.
    From all of our witnesses, I am interested in your 
perspectives on how the DOD will provide Congress the ability 
to perform its oversight responsibilities rigorously.
    This budget also funds the Department's new architectural 
approach to filling the gap in homeland missile defense 
capabilities caused by RKV cancellation by an approach called 
Underlayer, this idea to use modified Aegis and THAAD systems 
to augment homeland missile defense capabilities where 
feasible.
    MDA's fiscal year 2021 budget request asks for $39.2 
million for exploring the possibility of modifying the Aegis 
Weapon System for layered homeland defense. MDA also requested 
$139 million to develop an extended-range THAAD.
    It is my sincere hope that these capabilities can rapidly 
be developed and fielded to help address the very real 
capability gaps we will experience in our homeland missile 
defense system in near to mid term.
    This year's missile defense budget is important, not only 
because of what it chooses to fund but also what it chooses to 
zero out. It serves as a testament to the policies and 
priorities of the Department of Defense. While I have always 
been a strong supporter of this mission, I have deep and 
justified skepticism of the program's direction, transparency, 
and accountability of the current enterprise.
    To all the witnesses, thank you for being with us today. I 
look forward to your testimony and continued dialogue on these 
critically important issues.
    Mr. Cooper. I thank the gentleman.
    Now, I would like to ask unanimous consent that non-
subcommittee members, like Ms. Stefanik, be able to ask 
questions as well.
    And then I would like to ask unanimous consent that the 
written testimony of all the witnesses be inserted for the 
record and we would ask you to do a 5-minute summary of your 
written testimony.
    So without further ado, General O'Shaughnessy.

 STATEMENT OF GEN TERRENCE J. O'SHAUGHNESSY, USAF, COMMANDER, 
  UNITED STATES NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE 
                        DEFENSE COMMAND

    General O'Shaughnessy. Well, thank you, and Chairman 
Cooper, Ranking Member Turner, and distinguished members of the 
committee, I am truly honored to be here today as the Commander 
of U.S. Northern Command, as well as the North American 
Aerospace Defense Command. And I am also pleased to testify 
alongside Dr. Soofer, Admiral Hill, General Karbler, and Ms. 
Chaplain. And thank you for allowing us to submit our written 
testimony for the record, sir.
    USNORTHCOM [United States Northern Command] and NORAD 
[North American Aerospace Defense Command] are charged with 
executing the National Defense Strategy's number one objective, 
defend the homeland. Our adversaries have watched, they have 
learned, they have invested to offset our strengths, while 
exploiting our weaknesses. They have demonstrated patterns of 
behavior that indicate their capability, their capacity, and 
their intent to hold the homeland at risk below the nuclear 
threshold. And the changing security environment makes it clear 
that the Arctic is no longer a wall, the oceans are no longer 
protective moats; they are now avenues of approach to our great 
homeland and this highlights the increase in our adversaries' 
presence in the Arctic as well.
    To meet this challenge, we need to invest in a capable and 
persistent defense that can deter adversaries, protect our 
critical infrastructure, enable power projection forward, and 
prevent homeland vulnerabilities from being exploited. And to 
deter, detect, and defeat the threats arrayed against our 
homeland today, USNORTHCOM and NORAD are transforming our 
commands and our way of thinking.
    We cannot defend the Nation against 21st century threats 
with 20th century technology. We must be able to outpace our 
adversaries using a layered defense infused with our latest 
technology. To do so and secure our competitive military 
advantage, we will continue to partner with our Nation's 
defense and commercial industry to transform rapidly evolving 
science into leading-edge digital-age technology.
    The Strategic Homeland Integrated Ecosystem for Layered 
Defense, or what we are calling SHIELD, is the architecture we 
need to defend our homeland against adversary threats. As such, 
our layered defense needs to establish awareness in all 
domains, from below the oceans to the highest level of space, 
including the unseen cyber domain, which are all at risk. We 
need a layered sensing grid with Ground-Based Interceptor now 
and Next-Generation Interceptor in the future, as well as an 
underlayer lined with sensors that deliver domain awareness, 
and the command and control systems that drive engagements, 
long before approaching our sovereign territory. We need the 
ability to deploy defeat mechanisms capable of neutralizing 
advanced weapon systems in order to defend the homeland.
    We have put great effort into these areas, such as a 
ballistic missile defense, along with the need to aggressively 
defeat additional threats, to include the ever-growing cyber 
and cruise missile threats. The Next-Generation Interceptor, 
underlayer, and a layered homeland defense architecture will 
give us the capability we need to counter tomorrow's ballistic 
threat.
    We have worked closely with the Missile Defense Agency to 
identify and incorporate trade space and bring the timeline 
left. The Joint Requirements Oversight Council met earlier this 
week to discuss all aspects of the program and everyone in the 
Department is shoulder to shoulder with the plan to proceed to 
include time as a key factor.
    The pending release of the NGI request for proposal will 
look to further incentivize industry to deliver this capability 
to the warfighter as soon as possible.
    We are also addressing another priority to achieve synergy 
between ballistic missile defense and cruise missile defense. 
This will allow us to take advantage of inherent capabilities 
that can apply to both efforts and open up opportunities for 
smarter funding and technical decisions across both programs.
    We are mindful of the gravity of our mission and the trust 
you have placed in us. Aligned with the NDS [National Defense 
Strategy] in capturing our sense of urgency, we at USNORTHCOM 
and NORAD have declared 2020 as the year of homeland defense 
and are moving forward with the implementation of SHIELD. You 
in the committee should have great faith in the men and women 
at USNORTHCOM and NORAD because together we have the watch.
    Thank you for your support and I look forward to your 
questions.
    [The prepared statement of General O'Shaughnessy can be 
found in the Appendix on page 32.]
    Mr. Cooper. Thank you, General.
    Now, Vice Admiral Hill.

 STATEMENT OF VADM JON A. HILL, USN, DIRECTOR, MISSILE DEFENSE 
                             AGENCY

    Admiral Hill. Chairman Cooper, Ranking Member Turner, and 
distinguished members of the subcommittee, thank you for your 
continued strong support for the missile defense mission. I 
welcome this opportunity to testify before you today, side by 
side with the warfighter, policy, and GAO.
    The Missile Defense Agency continues to deliver missile 
defense capability and capacity to the warfighter, while 
supporting warfighter readiness to defend our homeland, 
forward-deployed forces, allies, and partners against existing 
and emerging threats. I am happy to report, this past year, we 
advanced the missile defense program on several fronts. And as 
you know, and as mentioned earlier, 1 year ago, our homeland 
missile defense system, the Ground-Based Midcourse Defense, 
passed a significant milestone when we successfully executed 
the first salvo intercept-flight test against a threat-
representative intercontinental ballistic missile with 
countermeasures. We successfully intercepted the re-entry 
vehicle with a Lead Ground-Based Interceptor and the next most 
lethal object with a Trail interceptor.
    Along with integration and testing later this year, we are 
preparing for initial fielding of the Long-Range Discrimination 
Radar [LRDR] in 2021. The LRDR in Clear, Alaska, is our most 
advanced ground-based radar and, once operational, it will 
provide a persistent tracking and discrimination capability to 
improve defense of the homeland against long-range ballistic 
missiles.
    We are making progress on the Aegis Ashore Poland site. 
However, significant work does remain to complete military 
construction activities before we can begin installing the 
Aegis Weapon System. Completion of this work will delay NATO 
[North Atlantic Treaty Organization] acceptance to no earlier 
than 2022.
    In close coordination with the Army Corps of Engineers, we 
recently implemented additional contractual measures to guide 
the prime construction contractor towards completion of 
prioritized tasks. MDA and the Corps are working closely with 
European Command to minimize the operational impact of the 
Poland Site delay by accelerating the upgrade of the Aegis 
Ashore Romania Site, operational today, to support SM-3 Block 
IIA operations, which is now complete.
    Today's operational missile defense system meets the 
current threat. We will continue to increase the readiness, as 
well as the capability and capacity of fielded homeland and 
regional missile defense systems, while investing in advanced 
technology to counter adversary ballistic and non-ballistic 
missile threats.
    When I fleeted up as the director last June, it was clear 
that a major reorganization of the Agency and realignment of 
talent was required. It remains a priority for me to structure 
the Agency to increase responsiveness, speed, and efficiency in 
an increasingly complex all-domain threat environment.
    We intend to improve business practices, resource 
stewardship, and talent management. There is more work to be 
done but we are on solid ground.
    This new organization is postured to take on the 
development, engineering, testing, and delivery of the Next-
Generation Interceptor, or the NGI. We are leveraging 
investments made in both the RKV and MOKV [Multi-Object Kill 
Vehicle] programs to begin development of this new homeland 
defense interceptor. We are working closely with the 
intelligence community and combatant commands to finalize the 
right set of requirements for NGI to counter a projected threat 
in the Aleutians. General O'Shaughnessy mentioned we completed 
the JROC [Joint Requirements Oversight Council] this week and 
that is a positive move forward.
    The Department plans to award two competitive NGI 
development efforts this year and, based on the government's 75 
percent confidence schedule, we anticipate emplacing the first 
NGI All Up Round, after sufficient intercept testing, as early 
as 2028.
    Now NGI represents significant investment, time, and effort 
but is the first holistic assessment of all warfighter top-
level and technical requirements the Department has conducted 
since the initial system operations began in 2004. This will 
work to ensure NGI paces the threat for years to come.
    Now working closely with Strategic Command, Northern 
Command, and Indo-Pacific Command, we are also undertaking 
architectural work in advanced technology development needed to 
support hypersonic missile defense and cruise missile defense 
of the homeland. A critical part of this architecture is a 
persistent space-based global sensor capability to provide full 
track custody supporting fire control engagements. We are also 
pursuing advances in joint all-domain and global command and 
control to support Northern Command in countering cruise 
missiles.
    Finally, MDA is investing the development of a layered 
homeland defense capability by adding sensors and modifying the 
Aegis Weapon System, the SM-3 Block IIA missile, and the THAAD 
Weapon System, and communications, command, and control.
    Later this year, we will conduct the first Aegis/SM-3 Block 
IIA intercept of a simple ICBM [intercontinental ballistic 
missile]. We are also assessing upgrades to the THAAD 
interceptor for testing against an ICBM. I want to emphasize 
that these regional missile defense systems are not 
replacements for the long-range missile defense capability 
provided by GMD. However, these capabilities within a layered 
homeland defense architecture provides flexibility and options 
for the Nation to increase the effectiveness of our defenses.
    Thank you and I look forward to answering the committee's 
questions.
    [The prepared statement of Admiral Hill can be found in the 
Appendix on page 52.]
    Mr. Cooper. Thank you, Admiral.
    Now, Lieutenant General Karbler.

 STATEMENT OF LTG DANIEL R. KARBLER, USA, COMMANDING GENERAL, 
  U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND AND COMMANDER, 
   JOINT FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED MISSILE 
                            DEFENSE

    General Karbler. Chairman Cooper, Ranking Member Turner, 
and distinguished members of the subcommittee, I am honored to 
testify before you today. Thank you for supporting our service 
members, our civilians, contractors, and their families, and 
your continued support to Army air and missile defense.
    I am here today as the Army's proponent for air and missile 
defense, its forces and capabilities, and as the commanding 
general responsible for the soldiers who stand ready to defend 
our Nation from an intercontinental ballistic missile attack, 
as well as the soldiers who provide critical missile warning to 
Army and joint warfighters.
    As air and missile threats become more diverse and numerous 
from competitors worldwide, the Army air and missile defense 
enterprise is working hard to ensure our warfighters and our 
homeland are protected.
    Air and missile defense is one of the Army's six 
modernization priorities and the Army continues to accelerate 
delivery of capabilities and capacity, as outlined in the 
enterprise framework for modernization, Army Air and Missile 
Defense 2028.
    For example, the first five prototype systems of interim, 
mobile, short-range air defense are in government testing. And 
per the fiscal year 2019 National Defense Authorization Act, 
the Army selected Iron Dome as the Indirect Fire Protection 
Capability's interim cruise missile defense solution.
    We also continue to explore high-energy lasers, which have 
great potential as a low-cost effective complement to kinetic 
energy to counter rockets, artillery, mortars, cruise missiles, 
and unmanned aircraft systems. The Army continues to press 
towards interoperability among sensors and shooters, as well as 
further integrating space capabilities into multi-domain 
operations.
    Critically important systems include the Army's five TPY-2 
forward-based mobile radars and four joint tactical ground 
stations providing missile warning from space-based sensors. In 
all of its air and missile defense missions, the Army seeks the 
balance of capabilities, both offensive and defensive, to 
counter threats left of launch and throughout all phases of 
flight in any weather in a denied, degraded, or contested 
environment.
    Finally, let me emphasize that people are our greatest 
strength. The dedicated service members, civilians, and 
contractors who develop, deploy, and operate our Nation's air 
and missile defense systems, as well as their families who are 
just as much a part of our team. The continued support of 
Congress is critical to our ability to develop and retain our 
highly qualified and mission-ready team.
    I look forward to addressing your questions.
    Thank you.
    [The prepared statement of General Karbler can be found in 
the Appendix on page 74.]
    Mr. Cooper. Thank you, General.
    Dr. Soofer.

 STATEMENT OF DR. ROBERT SOOFER, DEPUTY ASSISTANT SECRETARY OF 
         DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY

    Dr. Soofer. Chairman Cooper, Ranking Member Turner, and 
distinguished members of the Strategic Forces Subcommittee, 
thank you for the opportunity to testify on U.S. missile 
defense plans and programs in support of the fiscal year 2021 
budget request.
    The United States missile defense policy supports the 
National Defense Strategy. It is driven by the evolving missile 
threat and continues to be guided by the 2019 Missile Defense 
Review. Our Nation's first priority remains defense of the 
homeland against rogue nation ICBM threats, while we rely on 
nuclear deterrence to address the more numerous and complex 
nuclear threats posed by China and Russia.
    To pace the North Korean ICBM threat, the administration 
has announced the fielding of an additional 20 Ground-Based 
Interceptors for the protection of the homeland. I will say 
more about this in a moment.
    Our second priority is to provide missile defense 
protection for our deployed forces and allies against 
increasingly complex regional missile threats. Integrated air 
and missile defenses support our freedom of maneuver and ensure 
the United States can reinforce allies and coalition partners 
during times of crisis and conflict, which serves to deter 
conflict at the outset. We continue to prioritize cooperation 
with allies and partners, some of which have come under missile 
attacks recently.
    Finally, we seek to hedge against evolving missile threats 
and unexpected adversary developments by investing in advanced 
missile defense technology, the most important of which is 
space-based sensors for tracking.
    Recent changes in the Department of Defense plans to field 
an additional 20 Ground-Based Interceptors for the defense of 
the homeland have been of keen interest to the subcommittee. 
Like General O'Shaughnessy, OSD [Office of the Secretary of 
Defense] Policy leadership is concerned with the resulting 
delay but concur with the chosen course of action as a best 
means to address the rogue-state missile threat, as it evolves.
    The specific concern is that such delay could create 
security risks for the United States, should the North Korean 
ICBM threat mature faster than we can field new Ground-Based 
Interceptors. This is a difficult judgment to make because, 
while we are well-protected today, there is uncertainty about 
how quickly the threat will evolve.
    In this regard, the Department is taking a number of steps 
to move towards a more effective layered approach to homeland 
defense. As you have heard, we are improving the reliability of 
the existing GMD system through a service life extension 
program. We are fielding additional advance discrimination 
radar in Alaska, developing a new space-based system to track 
more sophisticated missiles, such as hypersonics, and exploring 
options for a layered homeland missile defense capability, 
which could be available mid-decade and would complement the 
fielding of the Next-Generation Interceptor planned for the end 
of the decade.
    Building out this layered architecture, combined with 
strike operations to counter mobile missiles prior to launch, 
once deterrence fails, provides a prudent strategic approach to 
defeating missile attacks against the United States from rogue 
states over the decade.
    I look forward to your questions and I thank you for your 
time.
    [The prepared statement of Dr. Soofer can be found in the 
Appendix on page 103.]
    Mr. Cooper. Thank you, Doctor.
    Ms. Chaplain.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, CONTRACTING AND 
     NATIONAL SECURITY ACQUISITIONS TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Cooper, Ranking Member Turner, and 
members of the subcommittee, thank you for asking me to discuss 
the GAO's findings and recommendations on the Missile Defense 
Agency's acquisition practices.
    In the 16 years that we have been mandated to review MDA's 
progress, we have considered its acquisition programs to be 
high risk. This is partly due to the sheer technical design and 
engineering challenge of developing an integrated ballistic 
defense system but also due to the schedule pressures MDA 
faces, the changing nature of the threat, and practices that 
exacerbate the risks already inherent in the mission.
    These high-risk practices have included too much 
overlapping of acquisition activities, which we refer to as 
concurrency. Very simply, this might mean beginning to 
fabricate systems before designs are fully known or going into 
production before completing flight testing. While concurrency 
can help speed up the acquisition process, it also means our 
problems come with greater consequences.
    In the past, we have also found that MDA reports to the 
Congress did not provide sufficient insight into costs, 
schedule, and progress. In addition, new programs were 
initiated without fully assessing alternatives or effectively 
consulting with warfighters or stakeholders, such as the 
intelligence community.
    MDA was still able to develop and field a limited homeland 
and regional ballistic defense capability but there were also 
program cancellations, delays, added costs, and gaps in 
knowledge about performance that could have been avoided using 
sounder approaches.
    In recent years, MDA has taken important steps to reduce 
acquisition risk. For example, it has improved oversight 
reporting, increased its outreach to stakeholders, and 
increased the accuracy of its models and simulations. 
Importantly, it has also taken steps to reduce concurrency. For 
example, full-rate production was postponed until problems with 
the SM-3 Block IB were corrected.
    While these and other changes are significant, more can be 
done, as illustrated with the recent cancellation of the RKV 
program. First, MDA can take additional actions to incorporate 
knowledge and perspectives of stakeholders. In the early stages 
of the RKV program, for example, concerns raised by warfighters 
and independent experts about the design of the RKV went 
unheeded. In the end, the same design issues were the principal 
reasons for the program's cancellation.
    As it plans its Next-Generation Interceptor, we are seeing 
that MDA is taking actions to work better with stakeholders 
and, more broadly, it is assessing how to better engage the 
intelligence community.
    Second, as was the case with RKV, MDA still resorts to 
tests, reducing tests, or adding concurrency when experiencing 
developmental delays or schedule pressures. Both practices tend 
to be harmful; one reduces knowledge about performance, the 
other increases the cost and time needed to deal with any 
performance problems that are discovered. The pressure to go 
fast has also resulted in entering contracts without finalizing 
their terms, which makes it more difficult to oversee 
contractor performance.
    We recognize the threats are real and the need to broaden 
missile defense capabilities is, indeed, urgent but there are 
also other ways to help speed the process, such as on-ramping 
new technologies only when they are matured, developing 
additional suppliers so there is more competition and more 
alternatives, rigorously assessing the range of alternatives 
before initiating new programs, taking swift action to stop or 
redirect efforts when they are not working, and strengthening 
systems engineering capacity and the government's knowledge 
about a program's technical baselines. Such actions put the 
programs on a better footing but they do require more resources 
and focus up front.
    Again, we see MDA is working on these challenges but they 
will not be easy to overcome. We also recognize that Congress 
and DOD are looking at different facets of missile defense, 
including acquisition, the transfer of systems to the military 
services, and MDA oversight. These studies are important as MDA 
is at a pivotal crossroads, needing to balance its ability to 
pursue new missions, while also maintaining its existing 
portfolio.
    We look forward to working with the agency as it addresses 
any recommendations from these studies, as well as our own, and 
moves forward with its new programs.
    Thank you. And also thank you to Sarah Mineiro for her 
support with GAO.
    I am happy to answer any questions you have.
    [The prepared statement of Ms. Chaplain can be found in the 
Appendix on page 115.]
    Mr. Cooper. Thank you very much.
    It is my understanding that the first series of votes will 
be about 10:30. So, I am hoping we can conclude the public 
portion of this hearing by then.
    I am going to forego my public questions and save most of 
my time for the closed session but I would like to yield my 
time now to Ms. Stefanik.
    Ms. Stefanik. Thank you, Chairman Cooper. I appreciate you 
yielding your time. I also want to echo my colleagues' comments 
about Sarah Mineiro. You have been a tremendous asset to this 
committee, and we are grateful for your service, and wish you 
the best on your next steps.
    I wanted to start off by asking you, General O'Shaughnessy, 
with the cancellation of the RKV, coupled with emerging threats 
that we face, I would like your comments and assessment on the 
critical need for an east coast missile defense to ensure that 
we do, indeed, have a layered defense, specifically, the Next-
Generation Interceptor.
    General O'Shaughnessy. Yes, ma'am, thank you for the 
opportunity because I do think it is important that we do 
consider that we have to be able to respond to the threats. In 
other words, we don't own the timeline. Our adversaries own the 
timeline in the sense that they develop capabilities and we 
have to maintain the ability to defend against them.
    I can tell you today I can defend against the rogue-nation 
threats that are current, for example North Korea. I also have 
the ability with our current system to defend against, for 
example, in Iran, if they were able to develop said capability.
    My biggest challenge now going forward will be, as we do 
look at NGI and the follow-on versions thereof, that we 
maintain that competitive advantage.
    Things that we need to consider: We have Fort Greely. We 
have holes that have literally already been dug that we need to 
fill with capability with the NGI. Following that, we would 
probably need to continue to assess the capacity, as well as 
the geography, of where we think threats would be coming from. 
I think that assessment has been happening. The continental 
interceptor site work that has been done is certainly going to 
inform that, as we go forward, to how do we maintain our 
ability to defend against these threats.
    Ms. Stefanik. And Mr. Soofer, I want to go to you.
    As you know, it was--Fort Drum has been released publicly 
by the Secretary of Defense as the preferred location for any 
potential east coast missile defense. Is that your 
understanding?
    Dr. Soofer. Yes, it is, Congresswoman.
    Ms. Stefanik. Thank you.
    With that, I am going to yield back to Mr. Cooper.
    Mr. Cooper. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you.
    Admiral Hill, we were able to have a conversation yesterday 
about the cancelled RKV and the opportunity to pick up time. 
Could you tell me about that process?
    As you know, all of us on this committee have been very 
disappointed at the projection of the time period for getting 
that program back on track. I am very fond of saying we put a 
person on the moon in a shorter period of time than we are 
being told that the RKV will be redesigned. Could you tell us 
of your efforts in that and give us any hope that we might 
actually be able to have capability within what would be a 
reasonable time?
    Admiral Hill. Yes, sir. Thanks for the opportunity to 
respond to the question.
    As I sit here, I feel the pressure of two warfighters on 
either side of me. They have been very clear that the time and 
schedule is priority one, in fact it is requirement one that 
was approved by the JROC this week.
    So what we have done is we have taken a holistic look at 
not just the development timelines, not just going flight test, 
but we have backed that in to the evaluation of the bids. So 
once we release the request for proposal and we go into the 
evaluation period of the bids when those are delivered to the 
government, within that process, we intend to have the 
warfighter as a part of that effort.
    And to give you an example, normally what you would do in 
any competition, if one of the proposals does not meet one or 
several requirements, you would typically just dismiss that 
contractor from play. We are going to take a very close 
assessment and if there is the inability to meet a requirement, 
let's just say, instead of over by two points you are under by 
two points, we don't want to remove that contract. We want to 
take an assessment to see if there is schedule that we can buy 
from not meeting that requirement and then we will go to the 
warfighter who is participating in that process to get approval 
to adjust the requirements so that we can keep that contractor 
in play to buy that schedule. So that is one example within the 
evaluation process of the bids.
    So it is very important for me. One of my highest 
priorities right now working within the Department is to get 
the request for proposal on the street so that we can get bids 
on the table. You know we have mentioned before the 75 percent 
schedule and that is just kind of lingo from our side in the 
acquisition world, where you would have a 50 percent confidence 
of what you would normally go with. We wanted to really dig 
into the schedule. So we are at a 75 percent, which gives you 
that 2028 timeframe. We know that working with industry through 
the evaluation process we can have opportunities to pull in 
schedule. So, there is the evaluation period.
    When you get into development, we have a series of 
knowledge points. We have a series of milestones as we track 
through each major event. And again, we are going to keep the 
warfighter engaged.
    I am very happy, even though the JROC is not an MDA 
process, that General Hyten has stepped in. He has told me, 
personally, he wants to help. And the help of having the four-
star-level service chiefs engaged in how we are doing through a 
development is unusual but I think it is necessary in order for 
us to capitalize on any schedule advantage we can get through 
the development, sir.
    Mr. Turner. We are currently coming to the test of an SM-3 
Block IIA against an ICBM target. It has been somewhat 
controversial in this committee. Could you please describe how 
important this test is, what we intend to accomplish, and what 
you think the outcome might be?
    Admiral Hill. Yes, sir. I agree that it is a very important 
test, just so that we can understand what we see in ground 
testing, and modeling and simulation. Does that realize itself 
in an actual flight in the most closely operationally realist 
event that we can do?
    So we are going to launch the same target that was used 
during the successful FTG-11. That was a salvage shot with GMD. 
We are going to launch that target--we are calling it a simple 
ICBM because that was the congressional direction--do a defense 
of Hawaii scenario. So defense of Hawaii very important but 
understanding how the SM-3 responds in that very stressing end 
game is going to be important data that you can't get from 
models or from ground testing.
    So we will launch the ICBM. It will fly through the field 
of view of the sensor coverage. And then we will fly that long 
range and we will have the ship mission planning, putting 
herself in the proper position, and shoot the SM-3. We have two 
onsite that we are preparing. So we have a primary and a 
backup. So we brought in everything that we need to do to be 
successful in that test.
    The modeling simulation shows us today that we are going to 
have a very high PK [probability of kill] but it is going to be 
very stressful on the front end of the missile because it 
wasn't designed to do this. So we are operating outside the 
design space, not just for the SM-3 but also for the Aegis 
Combat System. But based on the analysis, we are very confident 
we are going to succeed in that test, which is coming up here 
soon.
    Mr. Turner. General Karbler, we have sustained casualties, 
again, in Iraq from rocket attacks. People have been very 
concerned about our lack of missile defense that protects our 
troops there. Could you please speak about what needs to be 
done to provide some type of coverage for our troops in Iraq?
    General Karbler. Yes, sir. Thanks for those questions.
    I have been a career air defender for 32-plus years and 
defense of our forward deployed forces, and allies, and assets 
is a critical priority.
    As you know, there is a significant number of air and 
missile defense assets that are deployed to the CENTCOM AOR 
[United States Central Command area of responsibility] right 
now. And I do know that General McKenzie is in the process of 
bringing those air and missile defense assets into Iraq.
    The COCOMs [combatant commands], they determine the posture 
and how they will employ their AMD assets to best meet their 
intent and to minimize risk. We can also further minimize risk, 
not just through active defense but also through passive 
defense measures, such as the early warning that was provided 
to our soldiers in Iraq during the Iranian launches in January, 
as well as the hardened sites and dispersion.
    I will tell you the PRES BUD [President's budget] 2021 does 
provide continued funding to our critical air and missile 
defense capabilities. So Patriot, Indirect Fire Protection 
Capability, and Maneuver-Short-Range Air Defense, which gives 
us that multi-layered, multi-threat air and missile defense 
capability, again, to reduce the risk to U.S. forces and our 
allies.
    We talk a lot about countering UAS [unmanned aircraft 
systems], the SECDEF--Secretary of Defense designated the 
Secretary of the Army as the DOD Executive Agent for the Joint 
Counter Small UAS Office, headed up by Major General Sean 
Gainey. They will look at developing the joint doctrine 
requirements, training, and material solutions to get after the 
current and emerging small UASs as part of the threat set.
    Mr. Turner. I yield back. Thank you.
    Mr. Cooper. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair, and welcome to all of 
you today.
    Admiral Hill and Ms. Chaplain, what steps are being taken 
to ensure that the Next-Generation Interceptor does not have 
the same fate as the GBI and the RKV? The GMD program has cost 
more than $40 billion, an enormous amount of money spent on the 
EKV [Exoatmospheric Kill Vehicle] program, which has produced a 
system with a very poor record. The RKV program wasted $1.2 
billion trying to fix the kill vehicle. Are you convinced 
things will be different this time?
    And let me just say that this is my second term in Congress 
and I have sat on HASC [House Armed Services Committee] all of 
this time. It is very difficult to go back to my constituents 
and just continue to justify all that we allocate in the NDAA 
[National Defense Authorization Act] for the Department of 
Defense, when time and time again we have these wastes. We have 
systems that don't work. We don't have the checks and balances 
that correct the course. And quite frankly, I have got to tell 
you, it just, it is frustrating.
    I am a Marine and I want us to have the best national 
defense possible but it sure is alarming and disconcerting when 
we have a waste of money that consistently comes up in the DOD. 
And it is extremely difficult to go back to my constituents and 
yet again vote for another NDAA that we want to make sure 
shores up our military readiness and our national defense but 
this just happens time and time again. And quite frankly, for 
me, it is a broken record.
    And so I am very curious about your reactions.
    Admiral Hill. Sir, thanks for the question.
    I will tell you that I am laser-focused on the fact that 
the country has invested and continues to support defense 
against long-range rogue threats. I remain concerned about 
that. The whole reason why we have a GMD system is to protect 
this country, protect your backyard, protect my backyard, 
protect our children. I have high confidence in that but we can 
turn to the warfighter to get a confidence check from them.
    I look back at the data from FTG-11 and one of the newest 
missiles flying one of the oldest missiles. That was a dual 
salvo. To me, it builds a lot of confidence in today's GMD 
fleet. The Aegis fleet, strong. The THAAD fleet, strong. What 
we do with Patriot and how we bring those all together and link 
them, whether it is regional and in the future for homeland 
defense, to me, I think that is a very good path to be on, 
particularly against today's threat and then where we are 
going.
    For NGI specifically, some things that we are doing 
different, and it may sound a little geekish to you, but it is 
very important that you get the requirements right. So we 
started there by working closely with the intelligence 
community. And I want to tell you it was a little bit of a 
rough ride, as you come through assessing what the threat would 
be and all of the uncertainties. But based on our best 
knowledge and the best people sitting around the table, we set 
those threat requirements and we had those approved through the 
JROC. The operators approved those requirements. So that is 
very important to me.
    And then you look at the kind of contract approach that we 
are taking here. What we are going to do is compete. So we are 
going to have a competition at the All-Up-Round level. This is 
not just the kill vehicle. It is the All-Up-Round level because 
it is so important that we address all technical and 
warfighting requirements at the All-Up-Round level. Because it 
is operating within a larger system, we need to make sure that 
we have got the whole missile right.
    We are funded to take two contractors through preliminary 
design. And if there are enough resources in the program, we 
are going to go all the way through critical design. And if I 
had it my way, we would go all the way to flight testing and 
have ourselves a dual production line. Competition is key and 
then rigorous technical evaluation all the way through.
    So I think we have set this up to do it right. We have 
learned a lot. You know, as frustrated as I am and as you are 
with the RKV program, we learned a lot from that and we are 
making sure that we have laid down the right requirements 
working with the warfighter, working with threat community, and 
then getting into the development and the contract approach.
    Thank you, sir.
    Mr. Carbajal. Ms. Chaplain, thank you.
    Ms. Chaplain. So I would agree with the actions that he has 
already cited and we concur they are very positive. We also see 
the MDA as trying to make sure there are some key flight tests 
before they do go into production, which is a good sign. And 
then they are also emphasizing early parts testing, which was 
an issue in the last program.
    On the other hand, RKV itself started out with good 
intentions and good practices as a foundation. And it was just 
later in the program when things started going--when they 
started experiencing delays and problems, that they went back 
to some of these high-risk practices.
    So we are hopeful that things will be better. We are very 
encouraged by the interaction with stakeholders this time, and 
the intention to get Department-wide buy-in, and to adopt some 
better acquisition practices, but still cautiously optimistic 
because we have seen other programs start out with good 
intentions, too.
    Mr. Carbajal. Thank you, Mr. Chair. I yield back.
    Mr. Cooper. Thank you. The gentleman's time has expired.
    Before we move to the next question or let me note that 
Admiral Hill mentioned the term laser-focused in his oral reply 
and General O'Shaughnessy had mentioned it twice in his written 
testimony. I would suggest that is an inappropriate term, since 
the laser activities have been zeroed out of the NDAA budget 
this time.
    Mr. Rogers.
    Mr. Rogers. That is why I like him.
    Dr. Soofer, we have heard General O'Shaughnessy and Admiral 
Hill both talk about the importance--and you talk about the 
importance of this space-based sensor for both ballistic and 
hypersonic missiles.
    In the last NDAA, we instructed, Congress instructed that 
that development take place in the NDAA. It was, as we 
understand, moved over to the Space Development Agency. And 
then in this year's PB-21 [President's budget for fiscal year 
2021], it says that it has been transferred to SDA.
    Who is working on this sensor capability?
    Dr. Soofer. Congressman, may I defer the answer to Admiral 
Hill, who works closely with the Space Development Agency and--
--
    Mr. Rogers. I am all for whoever can answer my question.
    Admiral Hill. Sir, thanks for the question.
    As you know, MDA had been plussed up over the years to 
start the development and initiate the hypersonic ballistic 
tracking sensor system. That was always meant to augment the 
systems we have today, so we can handle the evolution of the 
ballistic threat, dim targets, and to track the unpredictable 
maneuvers globally for the hypersonic threat.
    A decision was made during the budget formulation of PB-21 
to take those dollars out of the Missile Defense Agency and 
place them within the Space Development Agency.
    Mr. Rogers. Who made that decision?
    Admiral Hill. I----
    Mr. Rogers. Congress directed it to be done in MDA.
    Admiral Hill. Yes, sir. It was made within the Department.
    Mr. Rogers. Who made that decision?
    Admiral Hill. I believe it was recommended by Dr. Griffin. 
He mentioned that recently in public.
    What he was trying to do--he is trying to consolidate the 
dollars for space because it is such an important capability 
that we need. And so by having it run by, basically, the 
architect for the proliferated capability, Dr. Tournear, as the 
Director of SDA. There is no light between us. We are working 
very, very close.
    What I do recognize as a concern for the Congress is 
visibility into how those dollars are leveraged and making sure 
that MDA is in charge of building that sensor. There has been 
no change in that strategy for MDA to remain the developer for 
that sensor and to provide that to SDA as part of their 
architecture.
    Mr. Rogers. Well, I like Dr. Griffin but he should have 
come back to us and talked to us about that before that 
decision was made.
    So tell me now. Who is doing the development? Is it you or 
SDA?
    Admiral Hill. It is the Missile Defense Agency for HBTSS 
[Hypersonic and Ballistic Tracking Space Sensor], as part of an 
SDA architecture.
    Mr. Rogers. Okay. Do you feel like you are making 
substantial or significant progress?
    Admiral Hill. I think we are. We have been very focused in, 
first, on we did the AOA [analysis of alternatives]. We came 
through our concept of operations. We have worked very closely 
on what we consider to be the highest risk, which is, you know, 
how do you deal with clutter, when you are looking down from 
space and you are trying to track things that are maneuvering 
globally. That was the highest risk for us and remains that 
highest risk. And we are moving towards a demo of what we call 
signal chain processing.
    So we are on track.
    Mr. Rogers. I want to go back to your last answer. I want 
to understand how you are doing the development of the space-
based sensor but the money has been moved to SDA.
    Admiral Hill. Yes, the intent is for SDA to provide funding 
back to MDA to continue the development work and provide those 
sensors to the SDA architecture.
    Mr. Rogers. Okay.
    General O'Shaughnessy, what is your requirement for a 
space-based sensor?
    General O'Shaughnessy. Sir, we are very much aligned with 
Admiral Hill in the sense of urgency to be able to take 
advantage of all sensors, both terrestrial sensors and then, 
ultimately, space-based sensors. Why I think that is so 
critical now is we see the advancement of things like 
hypersonic glide vehicles, where it is no longer a trajectory 
flying in a ballistic manner that you can have a radar contact, 
a radar vector that then you can translate into the impact 
area.
    Now with the hypersonic glide vehicles, you need to 
maintain custody of that vehicle to be able to give the 
appropriate warnings for our Strategic Command as well.
    And so to me, it is not just about using it from the defeat 
side but it is also the warning side. And to me, the only way 
you are going to get that is with space-based sensors.
    Mr. Rogers. In your best military judgment, do you believe 
that we have adequately funded or the Presidential budget is 
adequately funding your requirement?
    General O'Shaughnessy. Sir, I would say we need to continue 
to invest in this, as critically important going forward. I 
think we have the initial funding but I do think we need to 
maintain a focus on this because this is going to be key going 
forward to our overall homeland defense design.
    Mr. Rogers. I will take that as a no.
    Admiral, Poland Aegis Ashore, what a nightmare that has 
turned into. Tell me the contractor is eating the cost for 
these overruns and not the government.
    Admiral Hill. Sir, thanks for asking that question.
    I recently met with General Semonite and it was a tough 
meeting because we were looking for a way to get more 
predictability into that schedule. I will tell you, for as long 
as I have been onboard, that has just been very hard to 
measure. You know so when you have a construction contract that 
is a firm fixed price and how you check to see that work is 
being done, it is not the way you would do it in another kind 
of a contracting scheme.
    And so we work very closely with the Army Corps to say 
let's do two things and we have done this in the last 2 weeks. 
The Army Corps has refused to offer payment to submittals that 
are coming in from the company today, from the construction 
contractor. That is sending a message. In fact, their surety 
company is onsite. So we know the message is being heard.
    We have prioritized very specific items within the contract 
now. We are no longer giving them the freedom to just go work 
on what they want to work on. That is not predictable. So we 
have said these are the priority areas that support the Aegis 
Combat System install and check. And as you know, the Aegis 
system is boxed up in temperature-controlled boxes onsite, 
ready to be installed.
    And so we are very impatient and so we are working very 
closely with the Army Corps to really leverage and pressurize 
the contractor.
    It could move into the direction where none of us really 
wants to be, but for now we are giving them a chance but it is 
kind of a carrot-and-stick approach.
    Mr. Rogers. Thank you.
    Admiral Hill. Here are the priorities and we are not going 
to pay you until we get those done.
    Mr. Rogers. Thank you very much.
    I yield back.
    Admiral Hill. Yes, sir.
    Mr. Cooper. Now, Mr. Garamendi.
    Mr. Garamendi. The surety agent is at the site?
    Admiral Hill. Yes, sir, on ground doing an assessment for 
the company.
    Mr. Garamendi. Which basically means what?
    Admiral Hill. What that means is they are preparing to 
either move out and complete as fast as they can or preparing 
for the government to terminate.
    Mr. Garamendi. That is what I thought it meant. In other 
words, deep, deep trouble, correct?
    Admiral Hill. I would say that we have a go path----
    Mr. Garamendi. When the surety arrives, there is trouble.
    Admiral Hill. Not always. I think this is actually a 
positive.
    Mr. Garamendi. The insurance policy is about to be in 
place.
    Moving on, I guess this goes to Admiral Hill and Ms. 
Chaplain: What specific steps are being taken to make sure that 
the Next-Generation Interceptor does not follow the same 
problematic development process that the GBI and RKV followed?
    The GMD program has cost more than $40 billion--I should 
have been paying attention. Well, thank you very much. The 
question is asked. I was reading ahead. My apologies.
    Admiral Hill. Well, sir, could I ask to add just a little 
bit because Ms. Chaplain has spoke to it?
    Flight testing and fly before you buy is really important 
and I neglected to mention that before. Within that plan, we 
intend to go to a quick series of two intercepts before we go 
to production. And I will tell you the coordination that we are 
doing in the building is just important. The fact that DOT&E 
[Director Operational Test and Evaluation] has approved that 
strategy for moving forward in NGI is just one of the many 
things that we are doing differently.
    And I am not sure if you heard the prior answer. So, I will 
stop there.
    Mr. Garamendi. I think I have been caught not paying 
attention. That sometimes happens.
    There is a whole lot of questions here and the one I really 
would like to go to is a comment made by the Russian Deputy 
Foreign Minister saying that the planned U.S. test of the SM-3 
IIA against an ICBM can only mean one thing--the United States 
has started to develop a system that is to be used against us, 
Russia, and to build up a potential that can devalue the 
Russian means of nuclear deterrence.
    How are we evaluating that and what does it mean with 
regard to New START [Strategic Arms Reduction Treaty] and other 
treaties?
    Dr. Soofer. Mr. Garamendi, as you know, over the years, 
Russia has made such comments. They hate U.S. missile defense. 
They have always hated missile defense and they always will.
    I will just say that that comment represents a bit of 
hypocrisy. Russia already deploys 68 Ground-Based Interceptors, 
nuclear interceptors. They have more interceptors protecting 
Moscow than we have protecting the United States.
    In addition, sir, they also field the S-400 and they are 
fielding, beginning to field the S-500, which has capabilities 
against ballistic missiles. So what I am suggesting is that 
they already understand the value of missile defense.
    Now the second way I would address that question is we have 
gone to great pains, both in the context of the Aegis Ashore 
site in Europe and, potentially, with the SM-3 IIA underlay, to 
point out to Russia that their missiles are just too 
technically sophisticated for us to address with the SM-3 IIA 
missile and the numbers are just overwhelming.
    For instance, you know they have--they are allowed 1,550 
nuclear warheads under New START. Compare that to the number of 
GBIs that we have and the potential number of SM-3 IIAs and you 
know that the Russian concern is just one that is made up and 
meant to divide us from our allies.
    Mr. Garamendi. I will let it go at that.
    Dr. Soofer. Thank you, sir.
    Mr. Cooper. Thank you.
    Mr. Brooks.
    Mr. Brooks. I apologize for being tardy. We had a briefing 
on COVID-19 by a number of individuals and it lasted over an 
hour. So, that is where I was spending a lot of my time.
    If these questions have already been asked, please let me 
know, but, if not, then answer them.
    The first one is to Lieutenant General Karbler. To meet 
future operational needs, especially against a peer adversary, 
the warfighter should be able to leverage space-based assets 
tactically. Can you speak to the committee on the need for the 
Army to have access to beyond-line-of-sight information 
collected by space-based assets and why it is important to have 
access to that information from theater?
    General Karbler. Yes, sir. As we know, back in January, 
when Iran launched its missiles into Iraq, the Army JTGS, the 
Joint Tactical Ground Stations, those operators, they provided 
the direct downlink from satellites to that theater early 
warning architecture and were able to immediately provide early 
warning to the soldiers and joint forces that were deployed in 
Iraq to allow them to take cover and thus reduce potential 
killed in actions.
    Mr. Brooks. Vice Admiral Hill, the Department of Defense 
will be developing several major defense systems over the next 
decade, including but not limited to the Next-Generation 
Interceptor, the Ground Based Strategic Deterrent, and the W93 
warhead. Frankly, I am worried that we will soon outstrip our 
capacity for conducting the required testing on the designs and 
the components of these systems.
    In your opinion, where should we be investing today in 
order to avoid having the testing phase become a bottleneck for 
these programs?
    Admiral Hill. Great question and thank you for that.
    You know, part of the NGI strategy is to work closely with 
industry to strengthen the industrial base. Dr. Griffin has 
been pushing very hard for increased investment in the two 
areas that you are really asking about, and that is, you know, 
the parts that we require to operate in that environment, both 
from a natural environment and from a hostile environment, 
there are a limited number of those facilities that are 
available.
    So if I were to say what is the choke point or the long 
pole in this sort of development, again, a very complex weapon 
system, a very important weapon system, it is those test 
facilities.
    Mr. Brooks. What should we be doing in order to help ensure 
that those test facilities are not a bottleneck?
    Admiral Hill. We should continue to increase our investment 
in those areas and I will just give you an example of one of 
them.
    The Michigan State University National Superconducting 
Cyclotron is one of the key areas where we test for operating 
in the space environment and it is closing this year. So that 
takes you down to a smaller number. And because the number is 
not that big--and I will save that for the other session, to 
give you a sense of the numbers of sites that we can go to.
    So it is limited and there is competition, as you 
mentioned. There will be Next-Generation Interceptor parts and 
designs that are going through. There will be the Ground Based 
Strategic Deterrent. I am concerned about that as an industrial 
base issue.
    Mr. Brooks. Also for Vice Admiral Hill: In your written 
testimony, you state that you, quote, anticipate the first 
Next-Generation Interceptor round will be available to the 
warfighter as early as 2028, end quote.
    Given the expected threat environment, is there any 
optimism within the Missile Defense Agency or the Department of 
Defense at large to accelerate this timeline?
    Admiral Hill. Yes, sir, I think we have measures in place 
that will pull that in. You know, when you look at a government 
estimate, that is one thing. You need to get the request for 
proposal out on the streets, get the bids in by industry so we 
can evaluate.
    And I mentioned earlier, sir, before you got in, but it is 
an important thing to go back to, the evaluation process will 
include the warfighter. If we see something in a proposal that 
buys us time, I am going right to General O'Shaughnessy saying 
that we need to lower that requirement to meet that, to keep 
that industry partner in play. We want to take every 
opportunity throughout that evaluation process to buy time. And 
then once we get into development, we are going to take every 
opportunity to buy time.
    We already know, by doing some smart things in our 
qualification process and in the testing process, that we can 
buy some time but we won't know until we get bids on the table.
    Mr. Brooks. Well, my questions were each directed at a 
particular person but that meant that there are four others who 
may have opinions that they would like to share. If any of the 
other panelists would like to share their insight with respect 
to any of those questions I have asked, please do so.
    General O'Shaughnessy.
    General O'Shaughnessy. Thank you, sir. I would like to 
highlight the work that is being done right now and has been 
being done for 4 or 5 months now with MDA. And that is specific 
to the question you mentioned about the time.
    And in the end you can't just say bang your spoon on the 
table and say I want it sooner. You end up having to have a 
discussion about trade space. And what is the trade space? And 
what are the long poles that are driving this long acquisition 
timeline from a technology standpoint? And ultimately, how does 
that intersect with requirements?
    And so what I am really pleased with is Admiral Hill and 
his team, and his willingness to really roll up the sleeve with 
our warfighters to really have that discussion about trade 
space. What are the things that potentially we could relax a 
requirement that would give the timeline an ability to come 
left? And you actually end up with a less risk in the end state 
because you actually get the capability sooner.
    And so it is a balance. It is a tradeoff. It is trade 
space. It is working with industry. It is working with MDA. 
Those are discussions that we are having and that is what we 
will have to have as we go continue on into the future.
    Mr. Brooks. I see my time has expired. Thank you, Mr. 
Chairman, for giving us an extended period.
    Mr. Cooper. Thank you.
    Mr. Moulton.
    Mr. Moulton. Just a couple questions and I will defer then 
to the classified hearing.
    But, you know, if you look historically back to the 1980s 
with Star Wars, you can trace a lot of Russian missile 
developments to our development of missile defense. And I see a 
lot of nodding heads there.
    How do we break that cycle? Admiral Hill, you want to take 
a stab at that?
    Admiral Hill. Sure. I sort of like the Spy vs. Spy thing 
that I grew up watching.
    Yes, so we did learn a lot from the days of SDIO [Strategic 
Defense Initiative Organization] and many of those technologies 
have been incorporated into the systems that we have today.
    I mentioned earlier about the close coordination with the 
intelligence community. Ms. Chaplain brought that up. I read 
very carefully the reports that are coming from the GAO and we 
are taking those on. And one of the key things is is having a 
close coupling with DIA [Defense Intelligence Agency], NASIC 
[National Air and Space Intelligence Center], MSIC [Military 
and Space Intelligence Center], all the different intelligence 
community folks. And as we came through the threat assessment 
to present to NORTHCOM, and NORTHCOM did their own independent 
look at the intelligence, that is when you get out of this game 
of going back and forth. You have to project forward as far as 
you can without making an [inaudible], but you need to project 
forward with the best people you have got in the country. And I 
think that we brought them all to the table and we developed a 
solid set of requirements that will ensure that when we put 
that first NGI in the ground out there in the late 2020s, that 
it is ready to perform and can be upgraded along the way, 
through development and upgrade it once it is in the ground, to 
take on increasing threat sets.
    Mr. Moulton. But my understanding is that our, from a 
strategic perspective, missile defense program is not designed 
to go after the Russian threat.
    Admiral Hill. That is correct. Our charter is for the rogue 
threat but, unfortunately, the rogue threat is increasing its 
capability.
    Mr. Moulton. But you answered my question in terms of 
Russian modernization, by saying that we are trying to 
modernize our----
    Admiral Hill. I am sorry. I was talking about the 
modernization of the Next-Generation Interceptor and the GMD 
program, the U.S. defense side.
    Mr. Moulton. My question is more fundamental. Are we just 
in a never-ending escalatory cycle? Because every time we 
develop more advanced missile defense, the Russians develop 
more advanced architecture?
    Admiral Hill. Let me--since Dr. Soofer is----
    Mr. Moulton. There are whispers from behind me that it is 
not true but it is true. It absolutely is true. This is how it 
has gone. And at some point, it is just not strategically 
stable to be headed down this path.
    Dr. Soofer. Sir, may I?
    I would like to take question with your assumption that 
U.S. missile defenses have led to an expansion of Russian 
offensive, you know, an action-reaction type of phenomenon.
    Mr. Moulton. Well, you can take issue with that but I have 
heard this from the Department of Defense.
    Dr. Soofer. Well, let me give you an example, if I could, 
sir.
    So under the Bush administration, the second Bush 
administration, we pulled out of the ABM [Anti-Ballistic 
Missile] Treaty, right, but we also initiated a massive 
reduction in offensive forces, from 6,000 to about 2,200. There 
was no arms buildup on behalf of the Russians. Even Ronald 
Reagan, when he announced his SDI [Strategic Defense 
Initiative] program, we managed to get the START Treaty 
offensive reduction.
    So you have always had missile defense and offensive 
reductions. They are not inconsistent.
    Mr. Moulton. Yes, but they also don't necessarily go hand 
in hand. We got an offensive reduction because we pursued that 
treaty.
    Dr. Soofer. Even though we were also pursuing missile 
defenses.
    Mr. Moulton. That is not--that has nothing to do with the 
fact that Russia is modernizing their forces to beat our 
missile defenses. Those are--they are not connected.
    Dr. Soofer. We pursued both missile defense and offensive 
reduction.
    Mr. Moulton. I understand we pursued them and that is why 
we got both of them.
    Dr. Soofer. Right.
    Mr. Moulton. But that does not disprove the argument--there 
is a logical disconnect here. That does not disprove the 
argument that if we are pursuing missile defense, Russia is 
modernizing its forces. And so we are in this never-ending 
escalatory cycle, where the more that we pursue missile 
defense, no matter what we say about it being aimed for a rogue 
threat, Russia continues to modernize its forces.
    Dr. Soofer. I would just say, in response, Russia began its 
recent modernization of its nuclear forces well before we began 
deploying our 44 Ground-Based Interceptors.
    Mr. Moulton. When did they begin that?
    Dr. Soofer. They have been doing this for probably at least 
15 years.
    Mr. Moulton. Exactly. It goes back to the SDI initiative in 
the 1980s. That is exactly where it goes back to.
    So I just want to understand from a strategic perspective 
here where this goes.
    Dr. Soofer. If you look at our budget request, sir, we are 
not planning a major expansion of our missile defenses. We have 
44 Ground-Based Interceptors. We are going to add 20 to 64. The 
Russians understand this.
    Mr. Moulton. If the Russians understand this, then why does 
the Defense Minister say something quite different--or the 
Deputy Foreign Minister, when he said that the planned test of 
an SM-3 IIA against an ICBM can only mean one thing: The United 
States has started to develop a system that is to be used 
against us and to build up a potential that can devalue the 
Russian means of nuclear deterrence?
    Dr. Soofer. Sir, they do that to influence our allies and 
to influence our Members of Congress.
    Mr. Moulton. Okay, so explain that a little further, since 
you are making a----
    Dr. Soofer. We are having this exchange here. You are using 
a statement by a Russian Foreign Minister to push back against 
our development of missile defenses.
    Mr. Moulton. But what does it matter to Russia if we can 
protect ourselves from a rogue missile?
    Dr. Soofer. It shouldn't. Exactly right.
    Mr. Moulton. It doesn't affect their nuclear deterrence.
    Dr. Soofer. Exactly right. You are exactly right, sir. And 
so they protest too loudly. They should not be protesting.
    We are protecting ourselves against North Korea. We made 
that clear in policy terms. And in programmatic terms, that is 
obvious.
    Mr. Moulton. Okay, fine.
    Dr. Soofer. So why are they----
    Mr. Moulton. I will just say that the intelligence 
community has testified to us that they disagree with you.
    Dr. Soofer. It is more complicated than that, sir, and I 
look forward to showing you evidence on both sides of the 
equation.
    Mr. Moulton. Well, I look forward to sharing some more 
evidence with you, as well.
    Dr. Soofer. Thank you, sir.
    Mr. Cooper. Thank you.
    Now, our honorary member, Mr. Lamborn. We all look forward 
to his appearance.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And I was late getting here. I was in another HASC 
subcommittee until recently, a few minutes ago. So, tell me if 
you have already answered this question. I don't want to 
duplicate anything.
    General O'Shaughnessy, it is always good to see you. Being 
that you are in close proximity to U.S. Space Command, the 
former Air Force Space Command, which is temporarily based, 
hopefully permanently based in Colorado Springs near you, what 
are the synergies that you have in working together as two 
major parts of our defense.
    General O'Shaughnessy. Well, clearly, the decision hasn't 
been fully made yet relative to the final basing of that. But 
what I can speak to is both when it was Air Force Space Command 
and then now as it is, as you mentioned, temporarily located 
there, there is, indeed synergy. In fact, General Raymond is 
literally my neighbor, as well as our buildings are co-located 
next to each other.
    But we do find, especially with respect to the 
transitioning of some of the mission set from STRATCOM to Space 
Command, as well as Space Command has stood up, that there is a 
synergy between the ballistic missile defense and those that 
are providing the sensor capability, in order to give the 
attack warning as well.
    And so our teams work closely together. There is a 
geographic advantage there but I will say some of that was 
based on the Air Force Space Command being there, originally, 
as well. But I will say our teams are very, very tight.
    Mr. Lamborn. Excellent. Okay, thank you.
    General Karbler, a totally different subject, Iron Dome. In 
CENTCOM, are there opportunities to use Iron Dome, which is a 
proven anti-missile technology that the Israelis developed and 
have produced, partly, with our tax dollars, that we could be 
taking more advantage of to protect our assets and our people?
    General Karbler. Sir, specific to Iron Dome, the Army will 
field its first two batteries here at the end of the year. It 
will take some time for us to field those and train up the 
soldiers on those capabilities, before we are certified to be 
able to deploy it.
    So in the near term, I would say no, not feasible yet. And 
we will have to do the assessment after we train up the 
soldiers on the Iron Dome systems when we get them.
    To the broader piece, Iron Dome is a standalone system, not 
easily integrated into what we see as our future for air and 
missile defense of the Integrated Battle Command System, which 
basically looks at any sensor best shooter to deal with the 
threats that are out there. Iron Dome being standalone, I can't 
take those separate components of Iron Dome to allow me to 
optimize our air and missile defense posture.
    Mr. Lamborn. What was that last statement? I didn't catch 
that.
    General Karbler. I can't take a separate component out of 
Iron Dome, like the missile or the radar, to be able to 
integrate into our broader integrated air and missile defense 
network to use, say the Sentinel radar for Army air defense in 
the Iron Dome missile using the Sentinel radar data to be able 
to do that engagement. And that is why--Iron Dome is a 
standalone system. It just does not fit in well for our future 
plans.
    Mr. Lamborn. Okay. I hear what you are saying but I don't 
want to see the perfect be the enemy of the good. I don't want 
to see a perfect hoped-for and expected capability deter us 
from using something that is available and usable right now and 
will save lives.
    General Karbler. Yes, sir.
    Mr. Garamendi. Mr. Lamborn, would you yield for a moment?
    Mr. Lamborn. Yes.
    Mr. Garamendi. Earlier today, we discussed in the earlier 
committee the two lives that were lost in Iraq to Katyusha 
missiles. Now the Iron Dome is specifically designed for that 
missile and it doesn't have to be integrated into your grand 
plan if it is, you know, within 300 miles from that site, where 
those two men died.
    The Iron Dome is deployed, could have been available, but 
you have a grand plan of some great integration system.
    Mr. Lamborn, you are on to something important. Don't give 
it up.
    Mr. Lamborn. Okay, let's give him a chance to respond.
    General Karbler. Yes, sir. And General McKenzie, right now, 
is in the process of moving air and missile defense 
capabilities up into Iraq to protect our soldiers.
    Mr. Garamendi. And what is the system?
    General Karbler. We would have to go into the closed 
session to be able to talk about what systems that we are going 
to be using specifically.
    Mr. Garamendi. It is reported in the----
    General Karbler. And again, Iron Dome, as we field it at 
the end of this year, we will look at its operational 
capability and make an assessment for its deployability, as 
well as its use in theater.
    I agree, it is a combat-proven system. The Israelis have 
shown it is a very capable system. It is also a system that is 
used within Israel. So, again, we have to be able to look at 
how deployable is it. How well can we get it into theater and 
then operate it with the soldiers, given that it might not be 
as maneuverable as we might want it to be.
    Mr. Lamborn. Okay, thank you.
    I yield back.
    Mr. Garamendi. You know better.
    Mr. Cooper. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I just want to go back to Mr. Moulton's question and try to 
give some clarity as to how Russia's protestation that the 
United States missile defense is somehow the cause of their 
investment in what are new capable weapons and new 
capabilities.
    Under New START, we are both limited to 1,550 warheads, 
1,550. So Russia has 1,550 weapons, lethal weapons that are 
capable of hitting the United States. There are 40 Ground-Based 
Missile Defense missiles in Alaska. There are 4 in California--
44 to 1,550.
    So my question to the panel: Is there any--do we have any 
capability in our missile defense system to even address the 
least capable of Russia's missiles? Because that would, of 
course, suggest that they would need to get greater 
capabilities, if we are able to address their least capable.
    Is there anything with those 44 that we are actually able 
to do in addressing the least capable of Russia's 1,550 
warheads that are capable of hitting the United States and/or 
do we have anything that is currently funded or that you are 
currently working on that is planned to be deployed that would 
address the threat of the 1,550 nuclear warheads that Russia 
has capable of hitting the United States? Anyone.
    I mean I believe the answer is no, right? I mean so someone 
should confirm for us that----
    Admiral Hill. I will confirm, sir.
    Mr. Turner. Thank you.
    Admiral Hill. It is outside of our charter to design 
against Russian and Chinese. There is a different strategy for 
dealing with Russia and China.
    Mr. Turner. And you don't have anything that is capable of 
addressing 1,550 nuclear warheads that Russia has.
    Admiral Hill. The numbers and the capabilities, no.
    Mr. Turner. And there is nothing that you are developing, 
nothing the Missile Defense Agency has, nothing that is 
currently planned to be deployed.
    So their least capable, meaning that they would have no 
need to seek additional capabilities, is still not addressed by 
what we have deployed or are planning on deploying through the 
Missile Defense Agency's work, correct, Admiral?
    Admiral Hill. That is correct.
    Mr. Turner. All right, thank you.
    Mr. Cooper. The committee will be in recess and reconvene 
almost immediately in 2337. It is my information that votes on 
the floor have been delayed. So there is a possibility we can 
conclude the closed session fairly soon. Thanks.
    [Whereupon, at 10:41 a.m., the subcommittee proceeded in 
      
=======================================================================

                            A P P E N D I X

                             March 12, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 12, 2020

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                  [all]
</pre></body></html>
